                          CLOSEOUT FOR CASE M99010005

On 15 January 1999, a program manager1 brought us an e-mail message he had received from the
complainant2that contained allegations of misconduct in science. The complainant alle ed that the
confidentiality of peer review for an NSF proposal, submitted by another scientist! had been
breached. He said that the subject4 had taken ideas (intellectual theft) contained in the NSF
proposal and used them in his co-authored conference paper.5 In addition, the subject had used
information discussed in the NSF proposal about a foreign-based company6 that was contracted to
build a device designed by the company employing the scientist. As a result, the subject's
company7purchased an identical device from the foreign-based company.

The complainant explained that the only way the subject could have learned about the ideas he
presented in his conference paper and about the availability of the device fiom the foreign-based
company was fiom the scientist's NSF proposal. The complainant said that the foreign-based
company built two of these devices, one of which was purchased by the company employing the
scientist.

We learned that the subject's conference paper was presented and published 1 day before the NSF
program mailed the scientist's proposal to the ad hoc reviewer^.^ Consequently, the copies of the
proposal sent out for peer review by NSF could not have been the source of any ideas contained in
the subject's conference paper. In addition, we learned that the subject worked as a representative
for the foreign-based company that had been contracted to construct the device. Although we
neither confirm nor deny whether the subject or any other individual affiliated with the subject's
company reviewed the scientist's NSF proposal, there was no reason to suspect that the subject
obtained any information about the device from the scientist's NSF proposal since he already had a
direct working relationship with the foreign-based company. We concluded that there was no
evidence that the subject, or any of the ad hoe reviewers, breached the confidentiality of peer
review.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG.




                                           Page 1 of 1                             M 99-05
